<html>
<title> - RED RIVER VALLEY WATER SUPPLY PROJECT</title>
<body><pre>[Senate Hearing 109-712]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-712

                 RED RIVER VALLEY WATER SUPPLY PROJECT

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                  AUGUST 24, 2006--FARGO, NORTH DAKOTA

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                    U.S. GOVERNMENT PRINTING OFFICE

30-279 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001















                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                     J. Bruce Evans, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

             Subcommittee on Interior and Related Agencies

                     CONRAD BURNS, Montana Chairman
TED STEVENS, Alaska                  BYRON L. DORGAN, North Dakota
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
JUDD GREGG, New Hampshire            DIANNE FEINSTEIN, California
LARRY CRAIG, Idaho                   BARBARA A. MIKULSKI, Maryland
WAYNE ALLARD, Colorado               HERB KOHL, Wisconsin
                           Professional Staff
                            Leif Fonnesbeck
                              Ginny James
                              Rebecca Benn
                             Michele Gordon
                            Christine Heggem
                       Peter Kiefhaber (Minority)
                       Rachael Taylor (Minority)
                        Scott Dalzell (Minority)

                         Administrative Support

                            Darren Benjamin


















                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Byron L. Dorgan.....................     1
Statement of Represenative Earl Pomeroy..........................     2
Statement of Dennis Walakar, mayor, Fargo, North Dakota..........     4
Statement of Dale Frink, Engineer, North Dakota State Water 
  Commission.....................................................     6
Statement of Dave Koland, general manager, Garrison Diversion 
  Conservancy District...........................................     7
    Prepared statement...........................................     8
Statement of Mike Dwyer, executive director, North Dakota Water 
  Coalition......................................................    10
Statement of Bruce Furness, chairman, Lake Agassiz Water 
  Authority......................................................    12
Statement of Curt Kreun, city council member, Grand Forks, North 
  Dakota.........................................................    14
Statement of Lance Yohe, executive director, Red River Basin 
  Commission.....................................................    17
    Prepared statement...........................................    18



















 
                 RED RIVER VALLEY WATER SUPPLY PROJECT

                              ----------                              


                       THURSDAY, AUGUST 24, 2006

                               U.S. Senate,
     Subcommittee on Interior and Related Agencies,
                               Committee on Appropriations,
                                                         Fargo, ND.
    The subcommittee met at 11 a.m., in the Fargo City 
Commission Chambers, 200 N. 3rd Street, Fargo, ND, Senator 
Byron L. Dorgan presiding.
    Present: Senator Dorgan.
    Also present: Congressman Pomeroy.


              opening statement of senator byron l. dorgan


    Senator Dorgan. Good morning. We will begin the hearing. 
This is a formal hearing of the subcommittee, the Interior 
Subcommittee of Appropriations of the U.S. Senate, and we are 
making a formal record of this hearing and a transcript of this 
hearing. I have invited my colleague, Congressman Pomeroy, who 
is in Fargo this morning, to join me and be a part of the 
hearing because the hearing is on the subject that is very 
important to all of our State and to this entire region, as a 
matter of fact.
    I would like to just describe a little of the background 
and then call on my colleague, Congressman Pomeroy, for a 
couple of comments. Let me point out that when we passed the 
Dakota Water Resources Act, that was a piece of legislation 
that was authored and worked on by myself, Senator Conrad, and 
Congressman Pomeroy. That became law, and there is a section in 
that law that directs the Secretary and the State of North 
Dakota to jointly prepare, I am quoting now, ``jointly prepare 
and complete a draft environmental impact statement considering 
all feasible options to meet the comprehensive water quality 
and quantity needs of the Red River Valley and the options for 
meeting those needs, including delivery of Missouri River water 
to the Red River Valley.'' As a result of that, that's a 
portion of the legislation that we wrote, understanding that 
part of dealing with the broader water issues of North Dakota 
is the requirement to deal with the issue in the Red River 
Valley. The Red River has largely run dry in the past and will 
perhaps in the future, and the question is how will the 
development along the Red River from the southern part of our 
State to the northern part of our State on both sides of the 
river, how will that development continue to take place if you 
have a short supply of water? Development is not possible 
without water. It is the resource that determines whether the 
development will exist or not. So section 8 of the Dakota Water 
Resources Act anticipates this process of evaluating how to 
connect an assured water supply to the Red River Valley. The 
Bureau of Reclamation, as you know, has been working on their 
requirement under section 8 doing studies. The studies have 
taken much, much longer than we had hoped. I have, in fact, 
held previous hearings in Fargo for the explicit purpose of 
kicking and re-kicking the Bureau of Reclamation to try to get 
them to meet their timelines but it is a big old agency. They 
have got a lot on their plate and they tend to stretch things 
out, but it is done and we now have what's called the executive 
summary here in my hands of the draft environmental impact 
statement, Red River Valley Water Supply Project. At long last 
the Bureau of Reclamation provided a series of alternatives, 
and they are alternatives that have costs attached to them, 
saying here are the specific recommendations. There are eight 
potential alternatives, which includes an alternative called no 
action at all. Well, I think most of us would believe that is 
not a very good alternative. So of the other alternatives there 
have been discussions and meetings in the State by the Bureau 
of Reclamation and the State and local officials to discuss 
these various alternatives and what the alternatives might 
cost.
    There will be a Federal component of some type when the 
decision is made exactly which of the alternatives we pursue, 
and the purpose today is for us to evaluate what it is you want 
to do. I know from discussions and reports, the preliminary 
decisions about what alternative might be best for you, what 
will be the responsibility for those of us in Congress and for 
the Federal agencies if we pursue one of these alternatives, 
that's what we hope we might understand today. Getting this 
information on the record is another step in trying to move 
towards completion of our goal to get water to the Red River 
when that water is needed.
    There will be an amended version of the environmental 
impact statement with another public comment period of 45 days, 
and the final EIS is to be published by December 2006. The BOR 
says that they intend to hold to that date. So there are a lot 
of issues that attach to this. This is in some ways 
controversial, in other ways difficult, likely to face legal 
challenges, funding challenges. It is not easy to do what all 
of us would like to see done, but doing things that aren't easy 
is--if all that we ever did in life were the easy things, we 
would hardly ever breathe hard. Doing things that aren't easy 
sometimes is critically important. You have to find a way to 
make it happen and that's what we're intending to do.
    Let me call on my colleague, Congressman Pomeroy, who, as I 
indicated, has been an integral part of all of this, and 
whatever we do at the Federal level will be responsible on the 
House side for making it work and making it happen. So, 
Congressman Pomeroy, thank you for joining us today.


                statement of representative earl pomeroy


    Mr. Pomeroy. Thank you, Senator.
    It is a rare privilege for a House Member to participate in 
a Senate hearing, so I appreciate very much your allowing me to 
participate, and I want to note for the hearing the attendance 
of Governor William Guy. Forty-six years ago Governor Guy was 
elected to office, a young farmer from Casselton, North Dakota. 
During the 12 years that he served as the leader of our State, 
prudent statewide development of water resources was one of the 
clear enduring priorities of the Guy administration. Having his 
ongoing interest in his private life long after his 
governorship ended has really been a resource to our entire 
State. Forty-six years from now you will be talking about water 
because water and North Dakota are critically linked. What will 
happen to the future of our State depends upon how we will be 
able to sustain the water needs of growth.
    I think that this hearing, Senator, could not be more 
timely. We have so often referenced the water experiences of 
the 1930s in making the case for bringing water west to east--
bringing water supply to the Red River Valley. This summer we 
have an incredible drought that we have experienced. The water 
utilization restrictions we have seen in the Fargo community 
are a much more recent demonstration of what's at stake for 
eastern North Dakota in all of this. We have a dimension of 
growth unimaginable just a few years ago. Of course, the water 
needs to sustain it are more intense than ever. But the water 
availability and assurance is as uncertain as ever, as 
indicated by utilization restrictions as we have seen this 
summer. So I am interested in hearing from our experts in terms 
of water resource management, especially about the concerns 
that they had to manage through this summer and what's before 
them that--without an extraordinary response--might impair 
everything we have now come to know and enjoy about development 
of the Red River Valley.
    Thank you, Senator.
    Senator Dorgan. Congressman Pomeroy, thank you very much. 
Let me echo--I was go to introduce Bill Guy, but Bill Guy's 
service to our State had a lot to do with water, water policy, 
and I really appreciate seeing him here. He did spawn a 
generation of public service by others, including myself, much 
to the chagrin of some perhaps, I think we have been grappling 
with these water issues for a long, long time and origin of 
much of the intellectual bedrock for this has come back in the 
1960s and with Bill's work, so thank you for being here, Bill 
Guy. Thanks to all of you who have come.
    We will accept testimony, written testimony, by anyone who 
wishes to submit written testimony for 15 days after this 
hearing, and it will become a part of the permanent hearing 
record for the entire subcommittee of the Senate.
    I am going to call on the following folks for opening 
presentations and then we will have questions. I am going to 
call on the mayor first, Mayor Dennis Walakar, Fargo, North 
Dakota, and then I will call on Dale Frink, the State engineer 
of the State Water Commission, then followed by Dave Koland, 
general manager of the Garrison Conservancy District, Mike 
Dwyer, executive director of North Dakota Water Coalition, and 
then Bruce Furness, chairman, Lake Agassiz Water Authority and 
former mayor, of course, of Fargo, and Grand Forks city council 
member, Curt Kreun. So Curt is down at the end. Let me thank 
the mayor for allowing us to use your city council chambers and 
congratulate Fargo's new mayor and welcome him to the world 
of--well, I shouldn't say that--he has been involved in water 
problems for a long, long time as well, but welcome to the 
hearing, and Mr. Mayor, thank you very much. Why don't you 
provide us your testimony?
STATEMENT OF DENNIS WALAKAR, MAYOR, FARGO, NORTH DAKOTA
    Mayor Walakar. Good morning. I am Fargo Mayor Dennis 
Walakar. It is my pleasure to welcome the U.S. Senator Byron 
Dorgan and the U.S. States Representative Earl Pomeroy to the 
Red River Valley.
    Since the 1800s the Red River has been the lifeline to our 
city by serving as a primary water supply, providing means of 
barge and steam boat transportation for pioneers and fulfilling 
various recreational needs. The Red River continues to serve as 
our primary water supply. It is critical to sustain this 
current and for the future economy of the city of Fargo and 
basically for the future of the State of North Dakota.
    Our history shows the droughts in the valley can lead to 
serious water shortages. Add to that the growing population of 
our area and the potential for problems multiply. You can see 
on the first slide there of our earlier part of the city, and, 
you know, that's why we're here. I mean we are here because the 
railroad came through here and the Red River was our water 
supply and so forth. That's not the way it is today, but that's 
the way it was in the early settlement of our city.
    The city of Fargo has experienced steady growth for the 
last 50 years. A fairly consistent population growth of 2 
percent per year has occurred with accelerated growth starting 
in the 1970s and continuing through the year 2000. To plan for 
future needs several population projection studies have been 
completed over the past few years and each utilizing different 
assumptions and methodologies. Such efforts resulted in 
projected populations ranging from 165,000 as a low to 240,000 
to 243,000 as a high by the year 2050. Regardless of method or 
result, it is certain the city will continue to grow and it is 
Fargo's intent to be prepared for the associated increase for 
the demand of water through participation in the Red River 
Valley Water Supply Project.
    On a nationwide basis, residents of North Dakota use water 
much like their demographically similar neighbors. North 
Dakotans use considerably less than those in many other States 
because we try to conserve water. However, historical analysis 
of the water demand data suggests the residents of the Red 
River Valley recognize the value of water as a natural resource 
and use water in a very efficient manner.
    With an increase in population for the city of Fargo, the 
demand for water is anticipated to increase accordingly. Since 
1995 the city has been working with U.S. Bureau of Reclamation 
to address Fargo's future water needs. Based on the range of 
population projections, methodology utilized by the Bureau of 
Reclamation to estimate future water needs during a drought the 
city of Fargo could potentially need 30,000 to 45,000 acre feet 
of water per year.
    Existing and future industrial water demands are a critical 
component of the economy of the Red River Valley and were 
considered in the Red River Valley Water Supply Project. To 
address the issue, the North Dakota State University Department 
of Agri-Business and Economics was retained by the Bureau of 
Reclamation to complete an Industrial Water Needs Assessment. 
Industrial water production methodology and approach involved a 
review of historical crop productions and industrial water 
usage rates. Consideration of economic development scenarios 
and evaluation of factors attracting supply-oriented 
agricultural processing industries to the Red River Valley. The 
results of the study indicated that industrial needs attributed 
to the agricultural economy could increase to 35,000 acre feet 
per year, and up to 13,000 acre feet of additional water per 
year is estimated to be needed in the Fargo by the year 2050.
    Occurrence of severe low flow conditions in the Red River 
Valley at Fargo is chronic. Flows in the Red River at Fargo are 
highly variable by looking at this approach here. That is the 
history basically of the flows of the Red River here in Fargo. 
This year was extremely unusual. Most of us had estimated that 
we were not going to have a serious flood after a wet fall and 
a wet spring and we still didn't feel we were going to have a 
major flood, and we did, and that can happen basically as the 
winds of the weather.
    Between 1932 and 1940, according to a report that our 
Director of Public Works had done in 1940, there were 800 days 
when the Red River ceased to flow. That's an average of 100 
days per year between 1932 and 1940. During that time Fargo's 
population was 32,580. If that happened today we have 94,000 
residents as we speak.
    The occurrence of a significant drought is not a future 
concern. It is a concern today. If a drought of similar 
duration and magnitude as that of the 1930s happened in the 
present day, the city of Fargo would experience a water supply 
shortage during each year of the drought without a reliable and 
sustainable, supplemental water supply. The city of Fargo will 
be forced to suffer socioeconomic consequences associated with 
an inadequate supply of water.
    The impact of a drought would be devastating to the city of 
Fargo. Hydraulic modeling efforts completed by the Bureau of 
Reclamation indicate that the water supply shortages 
experienced by the city of Fargo would overwhelm our efforts to 
reduce water use through the city's recently adopted Drought 
Management Plan. According to 2005, water demands in a 1930s 
drought scenario is estimated that half the municipal, rural, 
and industrial demand in the Red River Valley would be unmet on 
a worst month basis. As would be expected, a vast portion of 
this shortage is identified for Fargo, meaning the extent of 
the local shortages would be magnified significantly. The grim 
water shortage projections need to be addressed through the 
implementation of a reliable Red River Water Supply Project 
alternative.
    Fargo fully supports the construction of a pipeline from 
the Garrison Diversion Unit to Lake Ashtabula to deliver water 
via the Sheyenne. This is the least expensive option and the 
one that affords us the most flexibility.
    What are the next steps in this process? We must determine 
local costs, how to finance the project. Then we can make a 
final commitment to the pipeline. After that we will work with 
the Lake Agassiz Water Authority to develop an operational 
plan. We will also continue to work with other metropolitan 
communities on strategies for treating and distributing the 
water the pipeline would supply.
    The drought conditions we experienced this summer have 
magnified the significance of this project. After we had water 
here in the Valley, probably more than anything could use for 
years and years and years, but right now after a wet fall, a 
wet spring we haven't had--we are about 5 inches below normal 
right now.
    It is my hope we can move forward in the near future with 
this plan to provide our water supply needs.
    Thank you for the opportunity to present our concerns. I 
would be happy to answer any questions you have. We have staff 
present here to address the technical matters.
    Senator Dorgan. Mr. Mayor, thank you very much. We 
appreciate those thoughts.
    I would like to next call on Dale Frink who is the State 
engineer of the State Water Commission. Dale.
STATEMENT OF DALE FRINK, ENGINEER, NORTH DAKOTA STATE 
            WATER COMMISSION
    Mr. Frink. Thank you.
    Senator Dorgan, Congressman Pomeroy, former Governor Bill 
Guy, Governor Guy was governor when I started with the Water 
Commission, so that's--I have been around a long time, so 
welcome.
    I am Dale Frink. I am the North Dakota State engineer with 
the North Dakota State Water Commission, and thank you for the 
opportunity to testify today.
    Development of the environmental impact statement for the 
Red River Valley Water Supply Project is in its fifth year and 
that is a long time, but one of the things that I have noticed 
over these 5 years is a change in people's attitude and how 
people understand the need for the project. You know, initially 
I heard things like, well, the water--the project just isn't 
needed. We don't need the water. But I think as more and more 
studies have gone on, that has changed and, you know, kind of 
the next step we took, well, you don't--you're not going to 
need the water if you adjust and control growth. Of course, I 
am not sure if that's ever--you know, how that is going to 
happen. But even more recently I think it gets into what the 
mayor was just talking about. We're short of water even with 
the existing populations. If you get into a 1930s drought, 
we're short of water even today. I think that is at least 
partially responsible for some of the more recent statements in 
that people are now calling for the allocation of the waters of 
the Red River. I see Lance Yohe is here of the Red River Basin 
Committee, and that is one of the things we're looking at. You 
know, the bottom line there is if you have jurisdictions in 
North Dakota, Minnesota, and Manitoba and everybody, you know, 
in a dry period wants their share but, you know, the important 
thing there is if you get into a 1930s drought and you divide 
zero by three, you end up with three goose eggs, and we need 
something better than that.
    So today we're here to talk about some of the involvement 
of the Federal Government as the way I see it. If you look at 
all the alternatives that have been addressed in the EIS, all 
of them are very, very costly. To get a supplemental water 
supply for Fargo and the Red River Valley is costly, and it is 
going to take a tremendous involvement from the local level. It 
is going to take involvement from the State level and it is 
going to take involvement from the Federal level. I note 
specifically today in terms of the Federal, you know, the first 
thing that comes to mind is the Dakota Water Resources Act 
includes $200 million for the Red River Valley Water Supply 
Project, but that is reimbursable, which means basically it is 
a loan that has to be repaid by the user. I think that is going 
to play a very important role in this project, but the project 
does need a grant. You know, I think you could get grant 
possibly by converting the reimbursable to non-reimbursable, 
and Dave Koland and Mike Dwyer are going to talk about this a 
little later, you know, we have been talking about maybe we can 
provide or allocate some of the State's MR&I dollars to the Red 
River Valley Project. So they are going to go into that in a 
little more detail, I believe. But at some point we need some 
Federal grant into this project to make it go.
    The second requirement from the Federal Government involves 
water treatment and the Dakota Water Resources Act does make 
treatment for biota transfer a Federal responsibility. So that 
is something that we're going to have to work on. You know, the 
cost for biota treatment, no matter what type of treatment, it 
is going to be costly but it is something that we have to work 
on. We continue to work with the Bureau of Reclamation and the 
Environmental Protection Agency on biota treatment, not only 
for this project but for the NAWS project in north central 
North Dakota. While there, there are many inter-basin transfer 
projects throughout the United States, and I am not aware of 
any of them that provide water treatment. Most of them are just 
raw water treatments from one major basin to another. You know, 
we are proudly getting to the point right now where it just--it 
just makes environmental sense to provide the biota treatment 
and to set a precedence in regard to this.
    I think in this project it is important that we develop or 
come up with a biota treatment process that is affordable, 
reasonable, and provides the safeguards necessary.
    We have made considerable progress in the last 5 years, and 
I congratulate all of you that have worked so diligently in 
getting us to where we're at. I am confident that the need that 
we have been talking about and I have been talking about and 
the mayor has been talking about, that need is going to be the 
driving force behind this, and I think because of that, we 
will--our dream for adequate water supplies for the Red River 
Valley will become a realty.
    So thank you.
    Senator Dorgan. Mr. Frink, thank you very much.
    Next we will hear from Dave Koland, general manager of the 
Garrison Diversion Conservancy District.
STATEMENT OF DAVE KOLAND, GENERAL MANAGER, GARRISON 
            DIVERSION CONSERVANCY DISTRICT
    Mr. Koland. Mr. Chairman, I commend you for holding this 
meeting in North Dakota. The importance of providing a reliable 
water supply for the Red River Valley is only magnified by the 
drought that has descended on our State this summer.
    Under the very best of conditions it will be at least 6 
years before we can provide a supplemental water supply for the 
Red River Valley. So the next steps are critical to facilitate 
the timely construction of the Red River Valley Water Supply 
Project.
    I will summarize my written testimony that I submitted, but 
I want to make a point before I get into those summaries that 
the Dakota Water Resources Act said that the selection will be 
made by the Secretary, in consultation and coordination with 
the State of North Dakota, in coordination with affected local 
communities. Throughout this process, North Dakota has strived 
to include water systems up and down the Red River Valley in 
this process. The affected communities, we have had a process 
that we have worked through in the State to arrive at the 
preferred alternative selection that started at the local level 
and then proceeded to be endorsed as we moved up until the 
governor finally submitting to the Secretary North Dakota's 
preferred selection.
    The next step for the Department of the Interior is to 
submit a report to Congress that outlines a detailed 
description of the proposed features of the project, a summary 
of the major issues in the environmental impact statement and 
the likely effects, if any, on Missouri River States and 
Minnesota and how the features will comply with the Boundary 
Waters Treaty of 1909.
    Congressional authorization is needed for any project 
feature that would provide water from the Missouri River or its 
tributaries to the Sheyenne River water supply and release 
facility. Congressional appropriations, as Dale has pointed 
out, are needed for the construction of the water treatment and 
related facilities that are attributed to meeting the 
requirements of the Boundary Waters Treaty of 1909.
    We will need congressional appropriations for the $200 
million that's indexed that's authorized in the Dakota Water 
Resources Act for the Red River Valley Water Supply Project.
    North Dakota needs to enter into a cooperative agreement 
with the Secretary to construct the feature or features 
authorized by the legislation and execute a master repayment 
contract with the Secretary and a water service agreement with 
the Lake Agassiz Water Authority. The State will need a 
financial plan to provide funding for one-third of the project 
costs.


                           prepared statement


    Garrison Diversion remains committed to working with our 
partners at the Federal, State, and local level to find the 
best solutions for the citizens of North Dakota while 
respecting all of our neighbors.
    Thank you, Mr. Chairman.
    [The statement follows:]
                   Prepared Statement of Dave Koland
    My name is Dave Koland, General Manager of the Garrison Diversion 
Conservancy District (Garrison Diversion). I live in Carrington, North 
Dakota, where Garrison Diversion has its headquarters. The mission of 
Garrison Diversion is to provide a reliable, high quality water supply 
for the benefit of North Dakota. Over 77 percent of our state's 
residents live within the boundaries of the 28 member counties that 
comprise Garrison Diversion. Garrison Diversion represents the State of 
North Dakota as the joint lead with the Bureau of Reclamation on the 
preparation of an Environmental Impact Statement (EIS) [DWRA Section 
8(c)] for the Red River Valley Water Supply Project [Section 8(a)].
    Mr. Chairman, I would like to commend you for holding this hearing 
in North Dakota. The importance of providing a reliable water supply 
for the Red River Valley is only magnified by the drought that has 
descended on our state this summer. Under the very best of conditions, 
it will be at least six years before we will be able to provide a 
supplemental water supply to the Red River Valley.
    The next steps are critical to facilitate the timely construction 
of the Red River Valley Water Supply Project.
    Upon completion of the EIS, the Dakota Water Resources Act of 2000 
(DWRA) addresses the process for the selection of an alternative. Four 
reports are required to be delivered to Congress if the Secretary 
selects a project feature that provides water from the Missouri River 
or its tributaries to the Sheyenne River water supply and release 
facility [Section 8(e)].
    Section 8(d)(1) provides that after reviewing the Final Report on 
Red River Valley Water Needs & Options [Section 8(b)] and the 
Environmental Impact Statement, the Secretary, in consultation and 
coordination with the State of North Dakota in coordination with 
affected local communities, shall select 1 or more project features 
described in subsection (a) [Red River Valley Water Supply Project] 
that will meet the comprehensive water quality and quantity needs of 
the Red River Valley.
    The ``affected local communities'' are represented by the Lake 
Agassiz Water Authority, and the State of North is represented by 
Garrison Diversion in the preparation of the EIS for the Red River 
Valley Water Supply Project.
    The Lake Agassiz Water Authority is governed by a board of ten 
locally elected officials representing five cities and five water 
districts in the Red River Valley. These five cities are Fargo, Grand 
Forks, Grafton, Valley City, North Dakota and Moorhead, Minnesota. The 
five water districts are Cass Rural Water, Grand Forks-Traill Water, 
North Valley Water, Agassiz Water Users, and Southeast Water Users.
    The Draft Environmental Impact Statement identified North Dakota's 
Preferred Alternative as the Garrison Diversion Unit (GDU) Import to 
Sheyenne River Alternative. The state identified this alternative 
because it provides the water needed to sustain the region, as well as 
benefits to the natural environment without any significant negative 
impacts.
    The state's preferred alternative selection process included 20 
meetings of the Lake Agassiz Water Authority Technical Advisory 
Committee before they recommended, on October 4, 2005, the selection of 
the GDU Import to Sheyenne River Alternative to the Lake Agassiz Water 
Authority board of directors. The Lake Agassiz Water Authority board 
voted unanimously on October 4, 2005, to select the alternative as 
their preferred alternative.
    The Public Relations/Red River Valley Committee of the Garrison 
Diversion Conservancy District recommended the alternative to the 
Garrison Diversion board of directors on October 4, 2005. The Garrison 
Diversion board of directors voted unanimously on October 7, 2005, to 
select the alternative as their preferred alternative.
    The North Dakota State Water Commission voted unanimously on 
November 1, 2005, to endorse the GDU Import to Sheyenne River 
Alternative as the state's preferred alternative. North Dakota Governor 
John Hoeven conveyed the state's selection to Secretary of the Interior 
Gale A. Norton on November 1, 2005.
    Additional guidance is provided in Section 8(a)(3)(A) if the 
Secretary selects a project feature under this section that would 
provide water from the Missouri River or its tributaries to the 
Sheyenne River water supply and release facility or from the Missouri 
River or its tributaries to such other conveyance facility as the 
Secretary selects under this section. No later than 90 days after the 
completion of the final environmental impact statement, the Secretary 
shall transmit to Congress a comprehensive report which provides:
  --A detailed description of the proposed project feature;
  --A summary of major issues addressed in the environmental impact 
        statement;
  --Likely effects, if any, on other States bordering the Missouri 
        River and on the State of Minnesota; and
  --A description of how the project feature complies with the 
        requirements of section 1(h)(1) of this Act (relating to the 
        Boundary Waters Treaty of 1909).
    Section 8(a)(3)(B) further provides that no project feature or 
features that would provide water from the Missouri River or its 
tributaries to the Sheyenne River water supply and release facility or 
from the Missouri River or its tributaries to such other conveyance 
facility as the Secretary selects under this section shall be 
constructed unless such feature is specifically authorized by an Act of 
Congress approved subsequent to the Secretary's transmittal of the 
above reports. If the Secretary selects a feature or features using 
only in-basin sources of water to meet the water needs of the Red River 
Valley identified in the Report on the Red River Valley Water Needs and 
Options, such features are authorized without further Act of Congress. 
The Act of Congress referred to in this subparagraph must be an 
authorization bill, and shall not be a bill making appropriations.
    Section 8(a)(3)(C) states that the Secretary may not commence 
construction on the feature until a master repayment contract or water 
service agreement consistent with this Act between the Secretary and 
the appropriate non-Federal entity has been executed.
    Section 8(d)(2) provides that if the Secretary selects only in-
basin sources of water, not later that 180 days after the record of 
decision has been executed, the Secretary shall enter into a 
cooperative agreement with the State of North Dakota to construct the 
feature or features selected. If the Secretary selects an option that 
would require a further Act of Congress, not later than 180 days after 
the date of enactment of legislation the Secretary shall enter into a 
cooperative agreement with the State of North Dakota to construct the 
feature or features authorized by that legislation.
    Section 1(h)(1) provides that prior to construction of any water 
systems authorized under this Act to deliver Missouri River water into 
the Hudson Bay basin, the Secretary, in consultation with the Secretary 
of State and the Administrator of the Environmental Protection Agency, 
must determine that adequate treatment can be provided to meet the 
requirements of the Treaty between the United States and Great Britain 
relating to Boundary Waters between the United States and Canada.
    Section 1(h)(2) states that all costs of construction, operation, 
maintenance, and replacement of water treatment and related facilities 
authorized by this Act and attributable to meeting the requirements of 
the treaty shall be nonreimbursable.
    In summary:
    The Secretary of Interior in consultation and coordination with 
North Dakota shall select one or more project features to meet the 
comprehensive water quality and quantity needs of the Red River Valley 
and then report to Congress within 90 days after completion of the 
Final EIS:
    1. A detailed description of the proposed feature,
    2. A summary of major issues in the EIS,
    3. Likely effects, if any, on Missouri River states and Minnesota, 
and
    4. How the feature complies with the Boundary Waters Treaty of 
1909.
    Congressional authorization is needed for any project feature that 
would provide water from the Missouri River or its tributaries to the 
Sheyenne River water supply and release facility. Congressional 
appropriations for the construction of the water treatment and related 
facilities that is attributable to meeting the requirements of the 
Boundary Waters Treaty of 1909. Congressional appropriations of the 
$200 million (indexed) authorized in the DWRA for the Red River Valley 
Water Supply Project.
    North Dakota needs to enter into a cooperative agreement with the 
Secretary to construct the feature or features authorized by the 
legislation and execute a master repayment contract with the Secretary 
and a water service agreement with Lake Agassiz Water Authority. The 
state will need a financial plan to provide funding for one third of 
the project cost.
    Garrison Diversion remains committed to working with our partners 
at the federal, state, and local level to find the best solutions for 
the citizens of North Dakota while respecting all our neighbors.

    Senator Dorgan. Mr. Koland, thank you very much.
    Mike Dwyer, executive director of the North Dakota Water 
Coalition. Mike.
STATEMENT OF MIKE DWYER, EXECUTIVE DIRECTOR, NORTH 
            DAKOTA WATER COALITION
    Mr. Dwyer. Senator Dorgan, I also would like to thank you 
for holding this field hearing on really North Dakota's most 
critical water issue.
    I, too, had the privilege of working with Governor Guy on 
water issues, and I have always considered myself one of the 
younger people working in water in North Dakota and still do, 
but Bill said you're looking a little older. But we were 
reminiscing about our disappointments in the 1984 Garrison 
Diversion Unit Commission but also about the dream that some 
day water might be delivered to eastern North Dakota.
    I represent, as you indicated, I am the executive vice 
president of the North Dakota Water Users, but I am also 
representing the North Dakota Water Coalition, which consists 
of about 30 organizations statewide who are committed to water 
development in North Dakota. Through the water coalition we are 
able to provide a united front for North Dakota's water 
community for water, water supply, and our water needs. The 
water coalition is unanimously and vigorously in support of the 
Red River Valley Water Supply Project and providing for each of 
North Dakota's water needs through this project.
    The subject matter that I will address here is the issue of 
funding. I would like to thank the congressional delegation for 
the support that you provided to North Dakota through the 
Federal Government for the infrastructure that we've had. We 
have a unique circumstance in our State where major 
infrastructure has all come together at the same time. We have 
had the Grand Forks Flood Control Project, Devils Lake, 
Southwest Pipeline, NAWS, Missouri River irrigation, and they 
have all come through through circumstances of nature and other 
issues at the same time. We thank you for the support that the 
delegation has provided, that the Federal Government has 
provided because we are nearing completion of the Grand Forks 
Flood Control Project. Southwest Pipeline is nearing completion 
of the original phase, about $70 million of the original $200 
million State MR&I program were allocated to the Southwest 
Pipeline to provide water to over 3,000 homes, rural homes in 
western North Dakota plus 24 or 25 cities, including the city 
of Dickinson. It's interesting to note that normally the 
Southwest Pipeline delivers about 120 million gallons of water 
a month, and this summer it is delivering about 180 million 
gallons a month. So it is quite a remarkable note of the need 
for good, quality water.
    Anyway, we have serious funding issues in that the 2000 
Dakota Water Resources Act provided $200 million for State 
MR&I, $200 million for Indian MR&I, and $200 million for the 
Red River Valley Water Supply Project. At that time we felt 
that the timing would be fairly decent in that we would be well 
along the way for providing the funding for the $200 million 
State MR&I and $200 million Indian MR&I so that when the Red 
River Valley Supply Water Supply Project came on line, those 
things would, as I said, we would be well under way with those 
things and then we would be able to provide a significant 
amount of revenues to the Red River Valley Water Supply 
Project; however, if you look at the funding that North Dakota 
has received for MR&I, rural water, from 2004 to 2007, it has 
been about $10 million a year. That $10 million, it is $10 to 
$12 million a year, and that $10 to $12 million is split 50/50 
with the Indian MR&I and the State MR&I program. Now, the 
Garrison appropriation has been larger, but some of that has to 
go for maintaining the canals and some other operation and 
maintenance that is required for the Garrison project. So about 
$10 to $12 million is allocated for Indian and State MR&I, and 
we do have serious needs. The NAWS project, the Southwest 
Pipeline, rural water systems, the central, south central, 
Indian MR&I, as I said, the circumstances of nature and drought 
and other things have brought all of these critical 
infrastructure together at the same time. Because of the 
shortage of Federal revenues in this area, the State has 
advanced about $17 million for NAWS and other projects just so 
those projects could be moving forward.
    The Garrison Diversion Conservancy District provided for 
fiscal year 2007 needs in the amount of $36 million for State 
and Indian MR&I without the Red River Valley Water Supply 
Project being part of that. So you can see if the Red River 
Valley Water Supply Project comes on line, construction of this 
project is able to move forward, as Dave Koland said, the 
soonest we could provide water would be 6 years, but a lot of 
that, of course, depends on funding. But if the Red River 
Valley Water Supply Project comes on line, in addition to the 
$36 million for the State MR&I and the Indian MR&I, which those 
projects are critical needs and they have to continue to move 
forward, we can't fund the Red River Valley Water Supply 
Project and then provide zero funding for those other critical 
needs. So when the Red River Valley Water Supply Project comes 
on line, there is going to have to be funding somewhere in the 
neighborhood of $50 million a year for the MR&I, Red River 
Valley, Indian MR&I components. It is such a critical issue 
because if we're able to get through the steps of congressional 
approval of a preferred alternative and authorization, then 
that funding will have to be there in order for us to provide 
the water supply.
    As I said, in the shortage of funding there is a lot of 
reasons, and certainly by bringing this up is not to affix 
blame anywhere. It is just to say that in the future, the 
delegation, the President, the Governor and others are going to 
have to work together to make sure that we have adequate 
funding to complete our agreement providing a water supply to 
eastern North Dakota.
    Senator, thank you very much.
    Senator Dorgan. Mr. Dwyer, thank you very much. We 
appreciate you being here.
    Former mayor Bruce Furness who is chairman of Lake Agassiz 
Water Authority. Bruce.
STATEMENT OF BRUCE FURNESS, CHAIRMAN, LAKE AGASSIZ 
            WATER AUTHORITY
    Mr. Furness. Thank you. Good morning.
    Senator Dorgan, thank you for having this hearing here in 
North Dakota. Congressman Pomeroy, thank you for being part of 
it, and I want to acknowledge also Senator Conrad and all three 
of you as a delegation for all of your support on this issue 
over a long, long period of time.
    I would also like to acknowledge Bill Guy, who when I first 
got involved with water about 12 years ago gave me some very 
valuable historical perspectives from his point of view as to 
what had occurred. I want to acknowledge Mayor Lindgren is 
here. He, of course, had been involved in water for many, many 
years as well. A lot of us have been working a long time to 
make this happen.
    I am here today representing the Lake Agassiz Water 
Authority. Dave Koland used the term, ``affected local 
communities''. That is Lake Agassiz Authority. That's us. We 
are the local part of this. Our motto, our slogan or vision, 
maybe you could call it is planning today for tomorrow's water. 
So what we want to have accomplished is have water when we need 
it. We are concerned about both the quantity of water as well 
as the quality of water.
    Lake Agassiz Water Authority is represented of or consists 
of 13 eastern North Dakota counties plus three cities in 
Minnesota along the Red River Valley. The area includes 27 
water districts and, of course, lots of towns and cities. We 
have a board of directors of 10 people, 4 represented by North 
Dakota Cities, 1 from Moorhead and 5 represented from the water 
districts. Our purpose is to purchase water from Garrison 
Diversion and, second, to distribute that water to the end 
consumer.
    We have talked a little bit of the studies. I would like to 
summarize those. The Needs and Options Report that Senator 
Dorgan talked about actually unequivocally determined that 
there is a need and that need is substantial. They also talked 
about the analysis of the seven options, plus the do nothing 
option. That was an important part of this whole process is to 
do that analysis, but it has been done. It is completed, and it 
speaks for itself.
    Environmental impact is ongoing but the results to date 
show an insignificant impact on the environment on any of the 
solutions and, in particular, the solution that is the 
preferred option. The preferred option, as Mayor Walakar 
indicated, was the Garrison Diversion import to the Sheyenne 
River. The need for that has been identified. It is the least 
costly process. It has the least environmental impact, and was 
selected by the Lake Agassiz Water Authority as its preferred 
option on October 4 of last year.
    It was endorsed by the Garrison--or also selected as the 
unit by Garrison Diversion as a unit representing the State of 
North Dakota 3 days later and has been endorsed by the State 
Water Commission. So all that has happened.
    What is next? Well, the next option or the--one of the next 
things to do is to get the preferred option selected by the 
Department of the Interior and LAWA would certainly encourage 
and hope that they come up with the same alternative that the 
State and local users have selected.
    Once that is done there are still some other hurdles. There 
are Canadian concerns obviously. There are Minnesota concerns. 
There are downstream State concerns. We have a pricing 
conundrum of the situation where the price of the water is 
going to determine the participation of people using the water. 
At the same time the participation of the people using the 
water is going to depend on the price, so it is sort of a 
chicken and egg thing that we are currently working through 
right now at LAWA. Mr. Dwyer mentioned the funding issue. In 
simple terms what we're hoping for is a funding formula that is 
one-third local, one-third State, and one-third Federal. As Mr. 
Frink mentioned, the Federal portion would be wonderful if we 
could somehow make that a grant as opposed to being reimbursed.
    What I would like to leave you with are three mental 
images. The first if you think of the outline of the State of 
North Dakota and then think of that outline representing the 
amount of water that the Missouri River contributes to the 
State of North Dakota and its blue in color, that blue color 
would fill that entire outline up of the State of North Dakota 
except for 4 percent. That little corner down here in southeast 
North Dakota would be white. That's how much water the Missouri 
has in it, how much relative to the rest of the water in the 
State, 96 percent of the water, surface water, in the State of 
North Dakota is in the Missouri River. So it just makes sense 
to us local people that that's where we would go to get the 
water.
    The other thing is, and I have used this before, if you 
think of all the water in the Missouri River as being 
represented by a pail of water, a gallon of water, what we're 
talking about taking out of that pail is less than half a 
thimble full. Actually it is .02 percent of the water in the 
Missouri is what we're talking about taking out. So we think 
perhaps the downstream States' concerns are not too serious.
    The other point I would make, the other image I would make 
is that the city of Kansas City, Missouri, is called the city 
of Fountains, and they use in their fountains more water from 
the Missouri River than we're talking about taking out to use 
for consumable use in the Red River Valley.
    Over the past 12 years of my involvement in the water, I 
have become convinced that this project can happen. I am 
concerned that this project must happen for North Dakota to 
continue to grow, and I at this point am confident that the 
project will happen. We have all heard the affirism what the 
mind of man can conceive and believe, it can achieve.
    The promise of water to eastern North Dakota was conceived 
60 years ago. The promise is believed now by a lot of the 
people in this room, and this promise needs to be achieved in 
the near future. I hope I don't have to wait another 12 years 
to see this come to fruition.
    Thank you once again for this opportunity. I don't have 
this in a pro's form, but I can certainly provide you with this 
outline if you would like that.
    Thank you.
    Senator Dorgan. Thank you very much, Bruce. We appreciate 
you being here.
    Finally, a city council member from Grand Forks, Curt 
Kreun, is here with you. Thank you for coming down.
STATEMENT OF CURT KREUN, CITY COUNCIL MEMBER, GRAND 
            FORKS, NORTH DAKOTA
    Mr. Kreun. Thank you for the opportunity, Senator Dorgan 
and Congressman Pomeroy and also Governor Guy. I didn't have 
ability or time to work with any projects but I did go to 
school with his son. I don't know if that counts for anything 
or not, at Mayville. But anyway, my name is Curt Kreun and I am 
the Ward 7 council person from the city of Grand Forks. I also 
do chair the Safety and Service Committee there, and I am a 
member of the Lake Agassiz Water Authority, representing the 
city of Grand Forks. I would like to thank you for the 
opportunity to testify on behalf of the city of Grand Forks 
because this is a very important project to us as well.
    Even before I was elected to the city council in Grand 
Forks, I had a strong interest in water. One of the businesses 
I did own was a water supply business that delivered water to 
people with inadequate water availability. I know firsthand how 
difficult and expensive it can be to provide good, quality 
water in quantities sufficient to meet the community needs. I 
have also seen the impact upon businesses and individuals when 
those needs cannot be met. Partially because of those 
interests, I agreed to represent the city of Grand Forks on the 
Lake Agassiz Water Authority. I have heard the reports from 
professionals about the climatic swings we can expect from the 
Dakotas. It isn't a question if there is going to be a drought. 
The question is when will the drought occur and how severe will 
it be?
    The technical details of population projections, future 
water demands, historic river flows, and projected shortages 
for Grand Forks are contained in the needs and option reports 
and the draft environmental impact statement prepared for this 
project. I would request that this document or these documents 
be incorporated into my testimony by reference.
    Senator Dorgan. Without objection they will be 
incorporated.
    [Note: The Draft Environmental Impact Statement for the Red 
River Valley Water Supply Project and other documents are 
available at http://www.rrvwsp.com.]
    Mr. Kreun. Thank you.
    Grand Forks is perhaps a bit more fortunate than our 
neighbors to the south because of the greater drainage 
upstream. We have fewer periods of low flow or no flow in the 
Red River; however, the studies have shown that there will be 
times where there will be no flow in the Red River or the Red 
Lake River. If there is no water in the rivers there is no 
water for us to process and to distribute to our customers in 
Grand Forks. Grand Forks is a regional hub for a variety of 
services. Altru Clinic and Hospital is a regional supplier for 
health care. The Columbia Mall and myriad of other retail 
stores provide the material needs for the area. Grand Forks is 
a hub for regional agricultural processing. Simplot provides 
value added products for the potatoes. This is not only a large 
employer at the processing plant but it is critical to potato 
growing industry which supports numerous family farms in the 
area. Similarly, Crystal Sugar in East Grand Forks supports and 
adds value to our processing of sugar beets as well. Grand 
Forks customers also include State facilities such as the 
University of North Dakota, the Dakota Mill and Elevator. A 
water shortage in Grand Forks would have direct statewide and 
Federal impact. We deliver water to Federal facilities such as 
the Grand Forks Air Force Base and regional border patrol 
offices. All of these facilities provide invaluable services 
and employment throughout northeastern North Dakota and 
northwestern Minnesota.
    As you can see, impacts to the water supply for Grand Forks 
has impacts far beyond the actual city limits of Grand Forks. 
All of the facilities noted above rely on a clean, dependable 
supply of water. What would happen were there to be no flow 
from the rivers to process through our water treatment plant, 
this question has weighed heavily on my mind, as well as the 
minds of our local leaders. It is obvious to us that the answer 
to the question lies in a regional solution. Independent 
actions by individual communities would prove detrimental to 
the local agricultural community, not to mention being too 
costly and likely too late.
    We are grateful at the Federal level we have people like 
Senator Dorgan who recognize the potential for problems and has 
taken action. The Red River Valley Water Supply legislation 
makes the possibility of a regional solution a reality. We have 
found what we think is the best solution available, which is 
the Garrison Diversion Unit import to the Sheyenne River 
alternative, say that 10 times real fast each time. This 
alternative would provide a reliable source of water to meet 
the needs of the valley. One of the issues with this 
alternative is that it is an inter-basin transfer of water. We 
do not feel that this type of transfer would be an impediment 
to moving forward. There are numerous examples throughout the 
United States and Canada of inter-basin water transfers. Water 
technology is available to treat source water to a reasonable 
degree in order to address harmful biota.
    Are there still outstanding questions? Yes, there are. 
These issues are being worked on through the environmental 
impact statement. For instance, we recognize that during the 
drought of the Red River will become affluent dominated. For 
Grand Forks that raises questions as to the quality of water 
that will be available for treatment. We may find that 
downstream users need to include water treatment plan upgrades 
as a part of the overall project. Those types of issues will 
need to be worked out as part of the project details. However, 
we're confident that there are reasonable solutions to this 
issue and others that may arise during the project development.
    Of the alternatives reviewed, the Garrison Diversion Unit 
import to the Sheyenne provides the best combination of low 
cost, high environmental benefits, and reasonable operating 
parameters. We need to remember that this solution does not 
provide the level of service of many major water projects. This 
project does not provide a continuous source of water 
treatment, nor will it provide water to the tap of the end 
users. Costs will likely dictate that this project will only 
provide the minimum level of water service necessary for 
community survival.
    During a drought, Grand Forks will lose a lot of the robust 
recreational opportunities that the river provides. You will no 
longer see the record 20- and 30-pound catfish pulled out of 
the Red River that we just had at our popular fishing 
tournament. During the drought we will have not have the water 
availability for lawns and gardens. No longer will we see the 
abundance of the flower beds to improve the look and feel of 
our community. The quality of life in Grand Forks and 
throughout the Valley will not be at a level to which we are 
accustomed to today.
    The point is, in other words, this water supply project 
represents basic needs to minimize direct economic impacts and 
has little or no provision for wants. Even though the water 
supply is a critical issue, much of the population of Grand 
Forks is still concerned with too much water, as was brought 
out before, and not too little. This spring we saw the fifth 
highest flood in recent history. As a community we are still 
focused on the completion of our flood control project. This 
means support will be highly dependent on cost to consumers. To 
a large degree this will be looked at as an insurance policy. 
How much is the consumer willing and able to pay for insurance? 
Remembering that we are also asking our citizens to pay a part 
of the flood control project for the next 20 years, which adds 
up to about $80 million out of our residents. The answers to 
these questions will need to be addressed through community 
debate; however, it is clear that the Federal participation 
contained in the Red River Valley Water Supply legislation is 
critical to making a regional solution a reality.
    In Grand Forks we are supportive of the Lake Agassiz Water 
Financing Project, which includes participation of local, 
State, and Federal governments. As a council person, I hear 
concerns every day about the cost of taxes and services. Many 
people are on a fixed income, struggle to meet expenses. Any 
model that can minimize costs to our local populus and industry 
will be beneficial.
    In summary we support the process of the regional water 
supply solution. We support the State preferred alternative and 
we support the concepts of the cost sharing solution.
    I would like to thank Senator Dorgan and Congressman 
Pomeroy again for having this hearing in Fargo and in North 
Dakota and appreciate the opportunity to testify. If there is 
any questions, I would be glad to answer them.
    Senator Dorgan. Thank you very much. We appreciate that.
    Finally, I am going to call on Lance Yohe of the Red River 
Basin Commission to describe a letter they have sent to Dennis 
Breitzman, Bureau of Reclamation, just briefly, and then I am 
going to ask a series of questions and ask Congressman Pomeroy 
to inquire as well.
STATEMENT OF LANCE YOHE, EXECUTIVE DIRECTOR, RED RIVER 
            BASIN COMMISSION
    Mr. Yohe. Senator Dorgan, Congressman Pomeroy, former 
Governor Guy, panel members, thank you for the opportunity to 
share some things that we think are important from not only the 
local perspective in North Dakota but also the larger basin 
perspective, including Manitoba and Minnesota. South Dakota 
really doesn't get too involved in this issue because of the 
head waters down there.
    When we look at this from a basin perspective it becomes 
evident that this is not just a North Dakota concern. It's a 
concern all over the basin, and the issue of too much water in 
the spring and a drought now that we have experienced this year 
is going on everywhere in the basin. Southern Manitoba has as 
much water supply problems as eastern North Dakota does. So 
when we looked at that from a basin perspective we realized 
that drought for the future is there. Some kind of drought will 
be there. How long it will last, what the need will be, those 
are the unanswerables and the study the Bureau of Reclamation 
is working on with the C district will help address some of 
those concerns in terms of helping us understand that. But what 
we do about that and how we get there, that's the question. 
From our perspective, the sooner we do it, the better. Time is 
of the essence because this drought could go on next year, the 
year after. Could be another 1930's drought or it could be a 
century's long drought like this region experienced back in the 
1100s. We don't know, but we know we need to address the 
future. We need to look at what we can do, and with that in 
mind we have sent a letter, which you have a copy of, that has 
two points to it. One is that drought is not just an issue that 
focuses on one area alone. It is something we need to look at 
together as a basin and we need to look ahead as a basin. So 
we're working with the group of technical advisors from each of 
the jurisdictions now to look at that to see if there is 
something that we can look at for the future to prepare for a 
drought where we could look at this resource and figure out 
what we're going to need, where it is going to be needed, and 
how we're going to deal with it. That strategy for basin-wide 
look at it from a drought planning perspective we think is 
important because particularly related to the differences in 
water laws between the jurisdictions. Dale Frink made reference 
to it. We have got nothing but conflict ahead of us if we don't 
get ahead of this curve. We have got to figure out how we are 
going to deal with this. Talking now, the only consensus 
agreement now, it will certainly be a lot better for us than 
having conflict and legal challenges later. Again, time is of 
the essence and that will just slow the process down.
    The second point we're concerned about is downstream 
interest and has been made references of several times here. 
What are the downstream interests exactly? What are people 
really concerned about? It has been made reference to water 
quality, biota, the things that are in there, and the need to 
do something about that. I think everybody is starting to 
realize something needs to move forward on that. The question 
is how far do we have to go? Where is the line on the 
treatment? What is the cost going to be? What kind of a 
precedent does it set? Those are important questions. If we can 
get some kind of consensus and agreement on that on that and 
where the line is and we can define the costs, then we're in a 
position to have everybody working on this together, the 
cooperation across the boundaries that will make this happen 
and allow us to get it done in a timely fashion, so we think 
that is important. We're working on that. If we can get that 
before the record of decision we will provide that to Bureau of 
Reclamation C District and hopefully that will become part of 
the process in deciding a final solution.
    Thank you.
    Senator Dorgan. Thank you very much. We will include your 
statement as part of the formal hearing record and the letter 
of the Commission to Dennis Breitzman, the Bureau of 
Reclamation.
    [The information follows:]
                    Prepared Statement of Lance Yohe
    Senator Dorgan, Congressman Pomeroy, members of the panel and those 
in attendance, I appreciate the opportunity to present today and bring 
the water supply issue into focus from a broader (Red River) basin-wide 
perspective.
    Background.--The Red River Basin Commission (RRBC) is a registered 
501(C)(3) tax-exempt organization in the United States and a registered 
Charity in Canada. The forty-one (41) board of directors are 
representatives of local, state, provincial, and tribal governments and 
citizens in Manitoba, Canada and Minnesota, North Dakota and South 
Dakota in the United States.
    The Vision of RRBC is a Red River Basin where residents, 
organizations and governments work together to achieve basin wide 
commitment to comprehensive integrated watershed stewardship and 
management.
    The Mission of RRBC is to develop a Red River Basin integrated 
natural resources framework plan, to achieve commitment to implement 
the framework plan, and to work toward a unified voice for the Red 
River Basin.
    Statement.--Water supply in the Red River Basin is Goal #10 in the 
Red River Basin (RRB) Natural Resource Framework Plan (NRFP). The goal 
reads: Ensure the appropriate use and sustainability of the Basin's 
surface and ground water. There are three objectives identified to meet 
this goal: a basin wide strategy to meet current and projected water 
supply needs; water supply emergency management plans for 
contamination, drought, and flooding; and to develop an understanding 
of the approaches and differences in minimum in-stream flow criteria. 
The RRBC and others are working to achieve these objectives to meet 
this basin goal.
    The RRBC in reviewing the Draft EIS for the Water Supply Project 
underway by the Bureau of Reclamation (BOR) and the Dakota Water 
Resource District highlighted the following:
  --In basin solutions fit best with the basin NRFP goals.
  --The RRBC is working with the jurisdictions of Manitoba, Minnesota, 
        North Dakota, and South Dakota to determine what the downstream 
        concerns would be if an out of basin supply option is the 
        preferred alternative in the current water supply project. This 
        information, when identified, will be provided to see if these 
        concerns could be addressed in the final recommendations.
  --The RRBC is also exploring with the jurisdictions what basin wide 
        drought planning might include and if there is a desire to 
        explore a basin wide drought plan. This plan could include 
        needs and strategies to meet those needs, as well as a basin 
        strategy to utilize water in an extended drought without an 
        adequate supply to meet all needs.
    The RRBC letter to the BOR is attached for reference.
    There is a growing consensus from around the basin that water 
supply is one of the major problems that we will face in the future. 
North Dakota is concerned enough to embark on a multi-year project to 
bring more water to the North Dakota portion of the Red River Basin. 
Minnesota is concerned enough to include major cities along the Red 
River in the North Dakota Study and to begin looking at the supply 
issue for the other portions of Minnesota in the Red River Basin. 
Southern Manitoba is concerned enough to have a current project 
exploring expansion of their water co-op network to forested lands many 
kilometers east of the Red River. And Winnipeg is concerned enough to 
explore safeguarding and protecting its usually stable supply of water. 
Everyone is concerned. Everyone anticipates a need in the future that 
will stress current supplies and practices. How we approach these 
anticipated needs together as we look to the future will determine if 
there is conflict or harmony. The RRB-NRFP identifies the need to use a 
basin wide approach in seeking solutions to the land and water problems 
in the Red River Basin. Water supply is one of those problems where a 
basin wide approach would go a long way in addressing everyone's needs 
and maximizing resources. RRBC will continue to build consensus toward 
a basin wide approach to address the water supply issue.
    Thank you, for the opportunity to present the RRBC basin wide 
approach.
                                 ______
                                 
                        Red River Basin Commission,
                                    410-283 Bannatyne Ave.,
                            Winnipeg, MB R3B 3B2, February 9, 2006.
Dennis Breitzman,
Area Manager, Bureau of Reclamation, Dakotas Area Office, P.O. Box 
        1017, Bismarck, ND.
    The Red River Basin Commission (RRBC) is a non-profit international 
organization that operates in Canada and the United States in the 
Province of Manitoba and the States of Minnesota, North Dakota, and 
South Dakota. The RRBC 41 member board represents local, provincial, 
state, and tribal leaders in the area as well as ex-officio 
representation from federal agencies and legislators at all levels.
    Recently, RRBC has completed a Red River Basin (RRB) Natural 
Resources Framework Plan (NRFP). The NRFP is enclosed with this letter. 
This NRFP has 13 basin wide goals of which water supply is #10.
    Goal #10 is: Ensure the appropriate use and sustainability of the 
Basin's surface and ground water.
    The 2 Objectives under this Goal are:
  --Objective 10.1: Develop a basin-wide strategy to meet current and 
        projected water supply needs.
  --Objective 10.2: Develop water supply emergency management plans for 
        contamination, drought and flooding.
    Each goal has objectives and an action agenda that reflect actions 
by others and RRBC that address the Goals and Objectives. The BOR's 
water supply study relates in part to Objective 10.1 in NRFP.
    In addition to the NRFP, RRBC has underlying Guiding Principles. 
The Guiding Principles are also enclosed with the letter. The basic 
theme of the Guiding Principles is to work on problems in the basin 
together and do no harm to others as solutions are implemented. 
Additionally, the guiding principles identify that ``Conservation is a 
primary consideration in meeting water supply needs identified in the 
basin.''
    At recent Plan Management Committee meetings, the DEIS was 
discussed. As part of the discussion RRBC members presented 
jurisdictional and personal concerns and identified matters that 
require further work and consideration. RRBC has encourages the members 
who provided these comments to evaluate them against the DEIS and to 
provide comments, as necessary to the BOR. RRBC encourages the BOR to 
give due consideration to these comments.
    RRBC recognizes that there are water supply needs in Eastern North 
Dakota and Western Minnesota, and also Southern Manitoba. We also 
recognize that each jurisdiction has the responsibility to address its 
legitimate and reasonable water supply needs.
    RRBC considers in-basin options the most consistent with its 
Guiding Principles and NRFP goals and objectives. If out-of-basin 
options are the only reasonable means possible to address the 
identified needs, then any alternative must adequately protect 
downstream interests.
    RRBC is in the process of developing a strategy to address 
Objective 10.2 in the NRFP: to facilitate the development of a basin 
drought plan. In addition RRBC will facilitate discussion between the 
jurisdictions to address the concerns of downstream interests, such as 
the identification of what adequate treatment would be in the event 
that an out-of-basin alternative is selected. RRBC is working to 
complete these two initiatives before the ROD. RRBC asks that the BOR 
consider input from these two initiatives in determining its 
recommendation on a preferred water supply option and finalizing its 
ROD, if the information is provided before the ROD is finalized.
    The RRBC would invite the BOR, the Garrison Conservancy District, 
and other interested parties to participate in these two initiatives.
            Sincerely,
                                               Dan Wilkens,
                                                     Chair of RRBC.
                                                Lance Yohe,
                                          Executive Director, RRBC.

    Senator Dorgan. We thank all of you for being here and 
presenting some information. The first question, I guess, I 
would ask is perhaps of Dale and the mayor and others. The 
option that the State has selected, and the option I believe 
all of you have suggested as the preferred option, an agreement 
that you have reached almost by unanimous consent? Or are there 
others who believe there should have been other options 
selected?
    Mr. Koland. Senator Dorgan, in my written testimony I 
outlined the procedure that we went through, starting with the 
Technical Advisory Committee of the Lake Agassiz Water 
Authority. That committee made a recommendation to the Lake 
Agassiz Water Authority, and the Garrison Diversion had a 
committee that was monitoring all the meetings that were going 
on with the Lake Agassiz Water Authority called the Public 
Relations and Red River Valley Committee. That committee made a 
recommendation to the Garrison Diversion Board. Then the State 
Water Commission, we held special briefings for the State Water 
Commission. We kept them up to date as we were going through 
the process. The point I am getting to to answer your question 
is that every vote at each of those committees and each of 
those boards was a unanimous vote. Now, that's not to say that 
we did not seriously discuss other ways of getting water to the 
Red River Valley because there are other ways; for instance, 
putting water in the James River and then bringing it over to 
the Red River is a way. But the Dakota Water Resources Act, 
when that deal was struck, specifically eliminated in our 
viewpoint the option of putting water in the James River. So 
the other options, there are other options that we could look 
at, would require us to go back and ask Congress for 
authorization to implement those type of options. That was just 
one of the options. There are the various pipeline versions. I 
would say that within each of these organizations there are 
people that lean toward the pipeline. I know a number of the 
water districts would favor what we call the replacement 
option, to provide a replacement water supply to every water 
system in the Red River Valley. We looked at that because we 
wanted to know what that would cost. It's billions of dollars. 
It just simply, yes, we would like to do it, but it is simply 
not affordable for the water users or for the State or for the 
Federal Government, for that matter, to pursue that option. So 
yes, we considered many different options and I would say that 
if you ask any number of people that, well, here is my favorite 
if someone else will pay for it, but it got down to which 
option could we meet the needs of the Valley and do the least 
amount of environmental impact to our system.
    Senator Dorgan. What is the condition of McClusky Canal at 
this point?
    Mr. Koland. The McClusky Canal has been maintained under 
contract with the Bureau of Reclamation. We use it to deliver 
water. We have water contracts with some of the Federal 
agencies to deliver water for wildlife management areas. So in 
my opinion it is in very good condition. There is some work in 
one of the regions of the canal that will have to be addressed. 
There are slides in some of the areas and that will have to be 
addressed. If that's the option that is selected, we will then 
take a look at what it will to correct those.
    Senator Dorgan. One of more of you mentioned a new 
authorization is needed by the Congress if, in fact, the choice 
of moving Missouri River water to eastern North Dakota is made, 
and if that selection is determined to be the case, then the 
Congress will have to pass a new authorization. You also 
pointed out correctly that the $200 million is reimbursable. 
You would like it to be nonreimbursable. Let me ask the 
question. Anticipating that we certainly would be working on 
those issues, what if, in fact, the $200 million continued to 
be reimbursable, what does that do to the cost of water 
delivered to the Red River Valley from the Missouri River?
    Mr. Koland. It is somewhat problematic to answer it 
specifically because it depends on how the repayment contract 
would be negotiated, but a typical repayment contract calls 
that repayment is based on the amount of water that you use. So 
theoretically, viewing it that way, that you would not be 
making payments until you had to call on the supplemental water 
source. Typically those are over a 40-year period and typically 
also extended so that it is a 80-year repayment period. So 
while it is reimbursable, typically it can be negotiated to 
what would be favorable terms for the water users.
    Senator Dorgan. One of the things that exists in government 
and perhaps in all of our lives is it is much easier to respond 
to a crisis because you can see it, feel it, there is an 
urgency to it, and so it is always a circumstance where it is 
easier to respond to a crisis than it is to respond earlier on 
to prevent a crisis. I ask the question, you know, the folks in 
the communities and the Red River Valley who will pay for this 
or pay for some of this project at least, what kind of opinion 
exists in the communities with respect to the need for this, 
the support for it and the urgency of it? Perhaps Mayor Walakar 
and Mayor Furness might answer and Curt as well. What is your 
sense of what the people are saying?
    Mayor Walakar. Well, after going through the wet period 
that we have gone through for the last 10 years or more, this 
was kind of a shock to our people. If you look at the crops and 
so forth in the Red River Valley, they look pretty good. Why do 
they look good? Because of our soil and so forth. I think small 
grains did fairly well and we did get a little bit of rain for 
the row crops. But we get a lot of calls at the office about 
the water restrictions and so forth, and there is a concern. 
All you have to do is--we have five dams on the Red River that 
the city maintains and we have restructured three of them and 
we are going to try and restructure the other two that provide 
reservoirs and so forth in case we go into a drought, but that 
is just a short-term process. I think the time is right, to 
answer your question about the reimbursable $200 million, I 
think that would be difficult because the process of, you know, 
I like the formula of one-third, one-third, one-third. I think 
that makes the most sense. As far as reimbursing that over 80 
years, I guess I don't have to worry about that, but the 
process gets to be that if we are going to be partners, that 
seems like to be a very good scenario to fund the project when 
you look at the project when you were talking originally it was 
$800 million to $1 billion. That's an awful lot of money. Even 
$600 million is an awful lot of money, but to me this 
alternative that we have in the process is very respectable. I 
think it is something that can be sold, but what people get 
down to really, Byron, is what is it going to cost me? What is 
going to be on our water bill on a monthly basis to provide 
that? The people came forward in the city of Fargo with a sales 
tax because it was a good deal. I mean it was a good process 
for us to fund flood protection and things like that and 
infrastructure, but it is going to be interesting. This would 
be the year to continue forward as far as I am concerned 
because water has not been a real serious problem here since 
1989.
    Senator Dorgan. Bruce Furness.
    Mr. Furness. I think the average person has not thought 
much about this. Maybe now this year with the start of 
potentially a drought they are more concerned, but they really 
won't get concerned until they turn the tap and nothing comes 
out. We have always said, and we haven't really sampled this in 
any way, but if we could deliver water to the citizens of 
Fargo, assure them that they would have this additional water, 
supplemental water supply, for something in the area of $10 a 
month additional, that that would be a sellable thing to the 
citizens. I have presented that at various times when I have 
spoken at service clubs and things like that and gotten a 
positive response, but it is certainly not any kind of 
scientific study that was made of this. But we think if we can 
get it down less than that it would be better, but that's sort 
of what we--you know, $100 a year we think people would view as 
the insurance payment to assure that they have water.
    Senator Dorgan. Curt, what is your assessment of the Grand 
Forks citizenry?
    Mr. Kreun. Actually our residents haven't given it a lot of 
thought at this point. We have been trying to bring up the 
awareness of the studies that have shown that we will have a 
problem. We have had some media coverage that has been very 
positive. The residents then have responded from the media 
coverage to indicate, yes, we should be looking at this. It 
does become an issue of how long do we pay the insurance policy 
before we see the benefit? I guess that is kind of what I 
stated in there. They view it as an insurance policy, but it is 
definitely an insurance policy that I think most people when 
they look at this in depth will see that it is worthwhile as an 
insurance policy because there will be a point in time, as I 
stated, it is not if we have a drought, it is just when and how 
severe. So we have to bring that forward as a governmental body 
to indicate how this will be affecting their amount of money 
that they would pay for the insurance policy. But it is slowly 
taking hold right now. It was very difficult in the beginning 
to bring this forward but it is starting to take hold right now 
in Grand Forks to understand because of the dry conditions that 
we've had in Fargo and the western part of the State. So it is 
coming.
    Senator Dorgan. All right. I am going to call on 
Congressman Pomeroy to inquire, but I did want to mention we 
have another former I see in the audience, Jon Lindgren, Jon 
welcome. Thank you for being here.
    Congressman Pomeroy.
    Mr. Pomeroy. I think it is very interesting as you talk 
about public awareness about the drought. I mean the searing 
water events we have had are floods. I am still shaking my 
head, hearing Denny Walakar talking about not enough water. You 
know, it's a distinct turn of events although a lot more of a 
focus this year certainly.
    I want to ask Mike a question. I was very interested to see 
that Southwest water supply demand is up by 50 percent over 
normal. How is that obviously related to drought? What is 
causing the additional draw on that water?
    Mr. Dwyer. It is the drought of the summer. Obviously south 
of Interstate 94 is a very intense dry period, you know. You 
know, north of the interstate, you know, we have got some 
rainfall, but in the southwest part of the State it has been 
extremely dry, so it is attributed to the drought.
    Mr. Pomeroy. Would we have had municipal water shortages 
potentially without Southwest water supply with the summer we 
have had?
    Mr. Dwyer. Absolutely. If you remember early back in the 
1980s when the Southwest Pipeline was first authorized, 
Dickinson was out of water and they were recycling their lagoon 
water for water back then. So Dickinson and a whole number of 
the other communities would not have had water.
    Mr. Pomeroy. Dale, you want to elaborate on that?
    Mr. Frink. The Southwest Pipeline started to pump water in 
1991 and that winter, if that pipeline wouldn't have been 
completed at that time Dickinson would have been out of water 
in that winter and they would have been out of water 
essentially for 2 years. So, yes, Southwest Pipeline made a 
very huge impact right out of the chute.
    Mr. Pomeroy. We in North Dakota talk about the critical 
link between a pipeline for water supply assurance versus the 
prospect of literally running out of water. We have got living, 
breathing examples of this in North Dakota.
    Mr. Frink. Yes, we do.
    Mr. Pomeroy. Lance, you mentioned consensus many times. As 
I look at your board, Manitoba is represented in equal numbers. 
Is there a developing consensus on need? That we're not just 
faking it? We're not just wanting some Cadillac water deal--
that we face the prospect of not having water for Fargo? I 
guess, as you have mentioned, that there would also be 
participation by southern Manitoba as well as cities from 
Minnesota that are part of the commission. Is there developing 
consensus on need?
    Mr. Yohe. Congressman, yes, I believe there is, and we have 
talked about that at our board meeting, and there is a general 
feeling that we're in a period where we really need to take a 
look at that. The difference has become how great the need is 
and how we address that need, but the need issue, there seems 
to be consensus it is there. Southern Manitoba right now all 
the way from the border to Winnipeg is looking all over 
southern Manitoba for a new source of water because they are to 
the point where they feel they can't rely on the Red River 
because there is nothing in place. So up in that area it is 
certainly there.
    Mr. Pomeroy. You know, once there is a developed consensus 
on need or a spoken consensus on need then there are other ways 
to continue the debate. Cost is a very effective way to kill a 
project without saying you are out to kill a project. I have 
seen it done many times. Mike, I thought your testimony was 
interesting in terms of the kind of dollars we're going to have 
to put behind this so the financials work. If you don't get the 
financials to work, none of it works. Would you care to 
elaborate a little more on that point?
    Mr. Dwyer. Well, you know, we certainly need to recognize 
whether the $200 million Federal component is grant or loan, it 
still has to be provided. So the $50 to $60 million a year is 
going to be essential in order to be able to move this project 
forward. I also might add that there is a State MR&I component 
of $200 million and it may well be that North Dakota will 
allocate a share of that to this project. I suspect it will. So 
those Federal dollars are going to have to be forthcoming in 
order for us to move this project.
    Mr. Pomeroy. Federal dollars required depends on design of 
the project. Is the $50 to $60 million estimate based upon the 
consensus alternative that has been supported?
    Mr. Dwyer. That is based on just a general $600 million 
project with $200 million being local, $200 million being 
State, and $200 million being Federal. So if we change that and 
went to a $1.2 billion project, obviously those numbers are way 
different, but it is based on the $600 million amount.
    Mr. Pomeroy. I think that that's an important point. In 
terms of talking about design, let's talk about design. Let's 
look with an open mind at the alternatives, but in the end 
let's understand that a $100 million a year funding requirement 
is unlikely to be committed by the Federal Government at this 
point in time and that a design that takes you to that dollar 
figure is essentially a nonstarter. So you can talk about how 
it is not going to happen which is the same as opposing it 
outright. I think that we're going to have to reflect long and 
hard at what appears to be thorough work done by you all in 
evaluating the alternatives and arriving at the preferred one 
that you did. Some are suggesting you jumped the gun a little, 
you moved up prematurely, picking one alternative when the 
Corps is still mulling around. If we're to get this thing on 
track there are finite options. There are a finite number of 
options. You have done some due diligence in looking at them. I 
think you have brought us some very good work.
    Thank you. That is the end of my questions, Senator.
    Senator Dorgan. I want to--first of all, let me say Valerie 
Gravseth is here in the back with Senator Mark Dayton. Valerie, 
where are you? Thank you. Your being here reminds us again that 
while we are on the North Dakota side and talking about 
principally our North Dakota cities, this issue relates to our 
region. I think, Lance, your comments are certainly correct 
about that.
    Congressman Pomeroy raised the issue of funding. All of us 
are committed, very committed to doing what is necessary to 
authorize what we decide to do here, to try to find ways to 
provide whatever funding is achievable. Obviously the fiscal 
policy in our country has deteriorated substantially, and in 
this oncoming year the increase in Federal indebtedness, not 
what is advertised in news on what the Federal deficit will be 
but the increase in indebtedness in the coming fiscal year will 
be about $600 billion. That's just for the budget debt. The 
trade debt will be about $750 billion at least. So we have a 
pretty grim financial picture with respect to budget policy, 
and I think, as Congressman Pomeroy I think is correct, it is 
not as easy as it would have been perhaps a decade or two 
decades ago to achieve all the funding that is necessary. But 
we have a commitment here in Federal legislation. This entire 
commitment, including this issue is a part of the bargain that 
was struck going back to the Pick-Sloan plan, and as a result 
of that and modifications of that along the way there is a plan 
that includes benefits to North Dakota, including resolving the 
issue of a water supply, an assured water supply on the eastern 
side of our State. It is our responsibility, all of us, to make 
sure that that commitment is kept. So, you know, I pledged, my 
colleagues, Senator Conrad and Congressman Pomeroy, pledged to 
do all we can to try to realize this dream of not being held 
hostage to a river that runs dry some day. That would have 
dramatic consequences for our largest metropolitan area in this 
region, and many other areas as well up and down the river. We 
have folks here from Pembina and other areas. The consequences 
are very significant for a pretty substantial part of our 
population.
    I would also like to say, as we conclude today, that there 
are perhaps those with other viewpoints that wish to express 
them as we move forward, and we will accept as a part of the 
formal record any and all additional viewpoints that wish to be 
submitted by individuals or groups and that will become a part 
of the record. The development of a record here is very 
important. I specifically asked that we begin to develop a 
record in the Appropriations Committee because it is--while we 
don't have authorization issues, it is also the case that the 
Appropriations Committee will at some point be required to take 
a look at this, and I want the record to have been developed on 
it as well, and that is the purpose of calling today's hearing. 
I know that a number of you have driven a long ways today to 
come with--to be part of this as well and we appreciate that.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                         CONCLUSION OF HEARING

    Senator Dorgan. With that, Congressman Pomeroy, thank you 
for being a part of this. I thank all of you for being here and 
thanks to the witnesses who testified. The hearing record will 
remain open for 15 days for those who wish to submit additional 
testimony. This hearing is concluded.
    [Whereupon, at 12:25 p.m., Thursday, August 24, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
